PROOF OF SERVICE
I Hilliard Fulgham II, I so swear or declare that on this date March 10th 2021; as required by
Supreme Court Rule29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI, on each party to the above
proceedings or that party’s counsel, and on every other person required to be served by depositing an
envelope containing the above documents in the Lawton Correctional facility legal mail mailbox
properly addressed to each of them and with first class postage prepaid to the following address:
Office of the Clerk
Supreme Court of the United States
Washington D.C. 20543

Jennifer Bames Miller
Office of the Attorney General
313 N.E. 21st St.
OKC, OK 73105

I declare under penalty of perjury that the forgoing is true and correct. Executed on March 10th
2021.
Description
/Si

16

